         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Recovery Act Funded Projects at the
SLAC National Accelerator
Laboratory




OAS-RA-L-11-05                              March 2011
DOE F 1325.8
(08-93)
United States Government                                                          Department of Energy


Memorandum
        DATE:    March 8, 2011                                    Audit Report Number: OAS-RA-L-11-05
    REPLY TO
    ATTN OF:     IG-32 (A10RA007)
   SUBJECT:      Audit Report on "Recovery Act Funded Projects at the SLAC National Accelerator
                 Laboratory"
           TO:   Manager, SLAC Site Office, SC-SSO

                 INTRODUCTION AND OBJECTIVE

                 In February 2009, the President signed the American Recovery and Reinvestment Act of
                 2009 (Recovery Act) into law. The Department of Energy's (Department) Office of
                 Science received approximately $1.6 billion through the Recovery Act which it used to
                 invest in science projects including approximately $97 million for major construction,
                 laboratory infrastructure, and research efforts at the SLAC National Accelerator
                 Laboratory (SLAC) located in Menlo Park, California. These funds were allocated to
                 eight projects to improve mission readiness and science capability. SLAC is managed
                 and operated by Stanford University. The SLAC Site Office is responsible for overseeing
                 SLAC, including its management of these projects.

                 Based on the importance of the Recovery Act's investment in science projects, we
                 initiated this audit to determine if the Department is efficiently and effectively managing
                 its Recovery Act funded projects at SLAC.

                 CONCLUSION AND OBSERVATIONS

                 Our review of three SLAC Recovery Act funded projects, accounting for over
                 $47 million, did not reveal problems with schedule or budget. In addition, for the
                 specific SLAC projects we tested, we did not identify material issues with compliance
                 with Recovery Act requirements, including the segregation of funds. We noted, however,
                 that in some instances SLAC did not always comply with its internal requirements
                 designed to ensure that subcontractor invoices and purchase requisitions for Recovery
                 Act related work were adequately reviewed and properly classified. Specifically, SLAC
                 had not always:

                     •   Properly approved subcontractor invoices for Recovery Act work prior to
                         payment; and,

                     •   Ensured that Recovery Act subcontractor invoices and purchase requisitions
                         were clearly identified as Recovery Act funded work.
                             Subcontractor Invoice Approval

SLAC did not always properly approve Recovery Act subcontractor invoices prior to
paying them. As of July 2010, SLAC had awarded 407 subcontracts with a total value of
$10.1 million to support the three projects we reviewed. We reviewed 13 subcontract
invoices from these projects totaling over $1.1 million, and we found that six invoices
were not approved by a Procurement Specialist and a Subcontract Technical
Representative prior to payment. According to SLAC's Business Services Division
Procurement Description, invoices that exceed $25,000 are required to be approved by a
Procurement Specialist as well as a Subcontract Technical Representative prior to
payment to ensure the subcontractor complied with its contractual obligations.
Specifically, as part of the approval process, the Subcontract Technical Representative is
responsible for verifying that the invoice is in accordance with the subcontract terms and
notifying the Procurement Specialist of any unreasonable amounts or unsatisfactory
subcontractor performance. However, the 6 invoices mentioned above had individual
amounts that exceeded the $25,000 threshold and were paid even though they had not
been approved as required. SLAC management stated that this situation occurred due to
lack of adequate training. In particular, SLAC explained that new procurement
procedures requiring the Procurement Specialist and Subcontract Technical
Representative reviews were developed in 2009; however, some of its personnel were
still following its old procedures.

                                Recovery Act Designation

SLAC also did not always ensure that subcontract invoices and requisitions clearly
identified Recovery Act funded work. Our testing revealed that for 11 of the 13
subcontractor invoices we reviewed, SLAC accepted the invoices for payment even
though they did not clearly delineate Recovery Act billings. SLAC's prime contract
stated that invoices must clearly indicate the portion of the invoice that is for work
funded by the Recovery Act. The markings are designed to ensure that the contractor and
subcontractor segregate obligations and expenditures related to Recovery Act funding.
SLAC management noted that, due to an oversight, the above requirement was not
included in their policies and procedures or subcontract terms and conditions; and
therefore, the subcontractors did not designate Recovery Act work on their invoices.
Despite the lack of inclusion of the Recovery Act classification requirement, we
determined that subcontractor costs were appropriately segregated for the items we
tested, in part, because the invoices were linked to requisition numbers that were specific
to the Recovery Act. We noted, however, that purchase requisitions were not always
clearly designated as funded by the Recovery Act.

Specifically, our test work identified 4 line item transactions on 11 purchase requisitions
that did not include a required Recovery Act designation. According to a Departmental
Implementation Guide for the Recovery Act and SLAC's internal policy, ARRA Made
Easy, all requisitions with Recovery Act funding must include the words "Recovery Act"
as the first words in the description block of the purchase requisition. This requirement
helps to track and report Recovery Act funding and ensure Recovery Act and non-
Recovery Act funding are not combined on a single requisition, even as separate line
items. According to SLAC procurement management, purchasing personnel noticed that

                                     2
the initial purchase requisitions did not include the Recovery Act wording; however,
since the process of approving requisitions takes a couple of weeks, they did not want to
resubmit the requisitions and delay the purchasing process. We determined that
Procurement later added the Recovery Act wording to these requisitions and that funding
was appropriately segregated despite the original omission. As noted in the Department's
guidance, to reduce the potential for comingling of Recovery Act and non-Recovery Act
funding, all requisitions for Recovery Act-related purchases should contain the
appropriate Recovery Act designation as required.

MITIGATING ACTIONS

After discussing our findings with SLAC management, SLAC initiated actions intended
to mitigate these concerns. For example, SLAC advised Procurement Specialists,
Subcontract Technical Representatives, and Accounts Payable personnel, through email
notification and bi-weekly training sessions, that invoices greater than $25,000 required
approval from a Procurement Specialist and a Subcontract Technical Representative prior
to payment. In addition, Accounts Payable personnel were advised not to make payments
without proper approvals. SLAC management also stated that they provided training to
personnel during a monthly staff meeting to ensure each line item on purchase
requisitions is identified properly if Recovery Act funding is to be used. Finally, SLAC
management revised its Recovery Act procedures to require subcontractors to mark
invoices appropriately for Recovery Act purchases. SLAC management stated that from
this point forward, they would ensure the revised requirements were included in all
procurement awards.

The above mentioned actions, if successfully implemented, should address the concerns
discussed in the report. However, we suggest that the SLAC Site Office provide
continued oversight and monitoring to ensure that the reported corrective actions are
effective.

Since no formal recommendations are being made in this report, a formal response is not
required. We appreciate the cooperation of the various Department elements and SLAC
during this effort.



                                     David Sedillo, Director
                                     NNSA & Science Audits Division
                                     Office of Inspector General

Attachment

cc: Assistant Director, Office of Risk Management, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80
    Audit Liaison, Office of Science, SC-41
    Audit Liaison, SLAC Site Office


                                    3
                                                                                      Attachment

SCOPE AND METHODOLOGY

This audit was performed between July 2010 and January 2011, at the SLAC National
Accelerator Laboratory (SLAC) and SLAC Site Office, located in Menlo Park, California. Our
audit included a review of selected SLAC American Reinvestment and Recovery Act of 2009
(Recovery Act) projects. To accomplish the audit objective, we:

    •   Assessed compliance with policies and procedures, laws and regulations, and contract
        terms applicable to SLAC projects funded by the Recovery Act;

    •   Interviewed key personnel at the SLAC and the SLAC Site Office;

    •   Reviewed and tested a judgmental sample of SLAC subcontracts funded by the
        Recovery Act including the flow down of required clauses, central contractor
        registration, utilization of competition, and small business consideration; and,

    •   Reviewed project management activities of selected Recovery Act funded projects.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. During the audit, we reviewed
performance measures related to the Recovery Act in accordance with the Government
Performance and Results Act of 1993. We utilized computer-processed data to identify the
population of costs spent using Recovery Act funding in order to accomplish our audit objective.
Based on our comparison of computer-processed data to supporting documentation, we
determined that the data was sufficiently reliable to achieve the objectives of our audit.

Management waived an exit conference.




                                                4
                                                               IG Report No. OAS-RA-L-11-05

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
